                                                         IG-00-061




AUDIT
                           INTERNAL CONTROLS OVER PROCESSING
REPORT                               DEOBLIGATIONS

                                    September 29, 2000




                           OFFICE OF INSPECTOR GENERAL


National Aeronautics and
Space Administration
Additional Copies

To obtain additional copies of this report, contact the Assistant Inspector General for Auditing
at (202) 358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General for
Auditing. Ideas and requests can also be mailed to:

        Assistant Inspector General for Auditing
        Code W
        NASA Headquarters
        Washington, DC 20546-0001

NASA Hotline

To report fraud, waste, abuse, or mismanagement contact the NASA Hotline at (800)
424-9183, (800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form; or write
to the NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station, Washington, DC
20026. The identity of each writer and caller can be kept confidential, upon request, to the
extent permitted by law.

Reader Survey

Please complete the reader survey at the end of this report or at
http://www.hq.nasa.gov/office/oig/hq/audits.html.




Acronyms

CFO              Chief Financial Officer
FMM              Financial Management Manual
GAO              General Accounting Office
HSF              Human Space Flight
NPD              NASA Policy Directive
OIG              Office of Inspector General
OMB              Office of Management and Budget
SAT              Science, Aerospace, and Technology
W                                                                                  September 29, 2000




TO:           A/Administrator

FROM:        W/Inspector General

SUBJECT: INFORMATION: Internal Controls Over Processing Deobligations
          Report Number IG-00-061


NASA is responsible for ensuring that appropriated funds are used only within specified periods
and for the purposes and amounts authorized by Congress. Obligations management is one of the
fundamental internal controls designed to produce accurate and consistent financial data and to
ensure funds control. An essential part of managing obligations is ensuring that management can rely
on the validity of the recorded obligations.

This report is the third in a series of three reports1 focused on NASA’s management of obligations.
The objective of this audit was to evaluate internal controls for processing and documenting
obligations of appropriated funds. This report identifies conditions related to supporting
documentation for deobligations2 only. Audit work is ongoing for objectives related to obligations.

While financial management officials3 at Langley Research Center (Langley) and George C.
Marshall Space Flight Center (Marshall) processed deobligations in a timely manner, 41 of 78 (53
percent) transactions reviewed were not adequately documented. Neither the NASA Financial
Management Manual (FMM) nor the Center-specific financial procedures provide adequate
guidance for processing and documenting deobligations. Because supporting documentation was
not clear or readily available for examination, we could not attest to the validity and amount of

1
  The first report, “Obligations Management – Recording Obligations and Adjustments” (Report number
IG-99-021) states that obligations and adjustments were not always promptly recorded. The second report,
“Matching Disbursements to Obligations” (Report Number IG-99-059) states that disbursements are not properly
matched to the originating obligations. Management nonconcurred with the latter report. Details on both
reports are included in Appendix A, under Prior Audit Coverage.
2
  A deobligation is a negative adjustment of a previously recorded obligation attributable to a contract
termination or modification, price revision or correction of amounts previously recorded, reprogramming, funds
transfer or distribution, or error correction. For purposes of this report, we considered all negative obligation
transactions in the accounting system to be deobligations.
3
  Financial management officials include all personnel within the NASA and Center Offices of the Chief Financial
Officer including the accounting and resources functions.
                                                                                                             2
deobligations valued at about $7.4 million. Due to the extent of the Centers’ documentation
deficiencies, we consider this deficiency to be a significant area of concern reportable to the
Agency’s Internal Control Council.4


Background

Because obligations management is key to the accuracy and reliability of Agency financial data,
NASA must ensure that both obligations and deobligations are adequately documented. The
General Accounting Office (GAO) established standards requiring that all transactions be promptly
recorded, properly classified, and supported by documentation that is clear and readily available for
examination.

We tested a sample of deobligation transactions at Langley and Marshall to determine whether
transactions were adequately documented and valid. The types of deobligating transactions
reviewed included contract modifications, funds transfers between programs and contracts, yearend
or cost accounting adjustments, and corrections in internal accounting records.


Recommendations

We recommended that criteria for processing and documenting deobligations be added to the
FMM and Center financial management procedures. We also recommended that the Centers
review the unsupported transactions identified in this report to ensure that they are valid and
adequately documented. Finally, we recommended that the Centers report the documentation
deficiencies as a significant area of concern to the Agency Internal Control Council.


Management’s Response and OIG Evaluation

Management concurred with the recommendation to publish Agency criteria in the FMM for
processing and documenting deobligations but partially concurred with the need to establish policy
at each Center. However, both Langley and Marshall management responded that additional
guidance would be established.

Financial management officials at Langley and Marshall concurred with the recommendation to
ensure that the unsupported transactions identified in this report were adequately documented and
valid. However, the Centers did not agree that existing data was inadequate. For example, Langley
stated that only one transaction reviewed was inadequately documented and that daily transaction
registers and internal Center correspondence adequately addressed the majority of the remaining

4
 The Internal Control Council makes recommendations to the NASA Administrator on issues for NASA's annual
statement of assurance to the President and Congress, pursuant to the Federal Managers' Financial Integrity Act
and for incorporation into NASA's annual Accountability Report.
                                                                                                       3
transactions. Marshall stated that one transaction was adequately documented but did not address
documentation for the remaining transactions. Both Langley and Marshall stated that all of the
transactions were valid.
We maintain that copies of general ledger printouts and noted explanations such as "to reflect
accuracy" and “to reflect correct charges" were inadequate to support deobligations and did not
meet the GAO standards for accounting transaction documentation. In addition, we do not agree
that reasons such as "to use expiring funds first" or "reduce uncosted carryover balances" are valid
deobligations. Deobligations should accurately reflect the results of NASA programs and
operations as specified in the Agency appropriation. Based on the Center's comments, we ask
management to reexamine these transactions and provide additional comments.

Management nonconcurred with the recommendation to report documentation deficiencies to the
Agency Internal Control Council, stating that the transactions in question were insignificant. The
Chief Financial Officer's (CFO's) plan to issue guidance in the FMM demonstrates support for our
recommendation to correct documentation deficiencies. However, Marshall's lack of addressing the
documentation deficiencies and Langley's comments that the majority of transactions were
adequately documented raises concern that detailed information will not be prepared and maintained
to support future deobligating transactions. We believe that a correct course of action would be to
determine whether similar documentation deficiencies exist at other Centers rather than minimize the
significance of the deficiencies at the two Centers reviewed. When controls such as adequate
documentation and proper management approvals are not in place, inaccurate financial information
and reporting can result. We ask management to reconsider its position on this issue and provide
additional comments based on our evaluation.




[original signed by]
Roberta L. Gross

Enclosure
Final Report on Audit of Internal Controls Over Processing Deobligations
                FINAL REPORT
AUDIT OF INTERNAL CONTROLS OVER PROCESSING
               DEOBLIGATIONS
W                                                                      September 29, 2000




TO:              B/Chief Financial Officer
                 106/Director, Langley Research Center
                 DA01/Director, Marshall Space Flight Center

FROM:            W/Assistant Inspector General for Auditing

SUBJECT:         Final Report on the Audit of Internal Controls Over Processing Deobligations
                 Assignment Number A0000900
                 Report Number IG-00-061


The subject final report is provided for your use and comments. Our evaluation of your
response is incorporated into the body of the report. Recommendations 1 and 2 will remain
open until corrective action is completed. Please notify us when action has been completed on
the recommendations, including the extent of testing performed to ensure that corrective actions
are effective. We consider management's responses to recommendations 3 and 4
nonresponsive. We request that management reconsider its position on those recommendations
and submit additional comments by November 28, 2000. The recommendations will remain
open for reporting purposes.

If you have questions concerning the report, please contact Mr. Chester A. Sipsock, Program
Director, Environmental and Financial Management Audits, at (216) 433-8960, or Ms. Linda
Wagner Anderson, Auditor-in-Charge, at (757) 864-3745. We appreciate the courtesies
extended to the audit staff. The final report distribution is in Appendix G.



[Original signed by]

Russell A. Rau

Enclosure
cc:
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
JM/Acting Director, Management Assessment Division
MSFC/RS01/Chief Financial Officer
LaRC/Chief Financial Officer
                         NASA Office of Inspector General
IG-00-061                                                                September 29, 2000
 A0000900
                                Internal Controls Over
                               Processing Deobligations


Introduction

This report is the third in a series of three reports focused on NASA’s management of
obligations. The first report, “Obligations Management – Recording Obligations and
Adjustments” (Report number IG-99-021) states that obligations and adjustments were not
always promptly recorded. The second report, “Matching Disbursements to Obligations”
(Report Number IG-99-059) states that disbursements are not properly matched to the
originating obligations. Details on the two audit reports are in Appendix A.

The objective of this audit was to evaluate internal controls for processing and documenting
deobligations of appropriated funds. This report identifies conditions related to supporting
documentation for deobligations only. Details on the audit objectives, scope, and methodology
are in Appendix A. Audit work is ongoing for objectives related to obligations.

Results in Brief

Financial management officials at Langley and Marshall processed deobligations in a timely
manner. However, those officials did not adequately document deobligations for more than half
of the transactions reviewed. Because of the lack of documentation for the deobligations, we
were unable to attest to the validity and amount of deobligations, valued at about $7.4 million.

Due to the extent of inadequate documentation to support the financial transactions, we consider
this deficiency to be a significant area of concern at the two Centers, reportable to the Internal
Control Council in accordance with NASA Policy Directive (NPD) 1200.1A, “Internal
Management Controls and Audit Liaison and Followup,” dated June 1, 2000. Requirements
for evaluating and reporting on management controls are further described in Appendix B.
Background
Federal agencies may obligate and expend funds only in accordance with an appropriation. 5
Obligations are the amount of orders placed or contracts awarded that represent a contractual
agreement by NASA to pay for the items or services when they are received. Deobligations
are downward adjustments of obligations, which may reduce or transfer prior obligations.
Some of the common reasons Langley and Marshall deobligated funds included:


         •   contract modifications, contract closeout, or reduction in contract scope;
         •   funds transfers between programs and contracts and from old to new contracts;
         •   yearend or other cost accounting adjustments;
         •   correction in internal accounting records;
         •   costing oldest or expiring funds first; and
         •   funds transfers to meet obligation and/or cost metrics.6

Because obligations management is key to the accuracy and reliability of Agency financial data,
NASA must ensure that both obligations and deobligations are adequately documented.
Criteria for accounting controls and documentation requirements for Federal agencies are
contained in various publications. Some of the current guidance includes:

         •   General Accounting Office (GAO), "Standards for Internal Control in the Federal
             Government," dated November 1999.
         •   GAO’s, “Reliable Financial Information: A Key to Effective Program Management
             and Accountability,” dated January 1997.
         •   Office of Management and Budget (OMB) Circular A-123, “Management
             Accountability and Control,” dated June 21, 1995.
         •   OMB Circular A-127, “Financial Management Systems,” dated June 23, 1993.

Each publication requires that agency managers incorporate basic management controls in
policies and procedures governing their programs and operations. Further, to ensure an
effective system of internal controls, managers should clearly document systems, transactions,
and other significant events relative to the financial accounting data and ensure that the
documentation is readily available for examination.




5
  An appropriation is an authorization by an act of Congress that permits Federal agencies to incur
obligations and to make payments out of the U. S. Treasury for specified purposes.
6
  NASA established a means of measuring performance goals referred to as metrics. Budget submission
instructions for the Office of Life and Microgravity Sciences and Applications require that 83 percent of
obligation authority be obligated by the end of the first year of the 2-year period. The Office of Space Flight
and the Office of Life and Microgravity Sciences and Applications require that 100 percent be obligated by
the end of the first quarter of the second year. The NASA CFO Functional Leadership Plan requires that 70
percent of obligations be costed by the end of the first year of the 2-year period.

                                                       2
Supporting Documentation for Deobligations

Finding. Thirty-three (55 percent) of the total of 60 statistically sampled deobligations and 8
(44 percent) of the 18 judgmentally selected deobligations reviewed at Langley and Marshall
were not adequately documented to support the transactions. Neither the NASA FMM nor the
Center-specific financial procedures provide adequate guidance for processing and
documenting deobligations. As a result, we could not attest to the validity of 17 (28 percent) of
the 60 deobligations, valued at about $3.4 million. In addition, we could not attest to the
validity of two (22 percent) of the nine deobligations judgmentally selected at Marshall and
valued at $4 million. Due to the extent of the Centers’ documentation deficiencies, we consider
this deficiency to be a significant area of concern reportable to the Agency’s Internal Control
Council.

Internal Control Standards for Documentation

Sound management controls for recording and reporting obligations and deobligations must be
maintained to ensure appropriation integrity and compliance with fiscal law. Controls are to be
consistent with the "Standards for Internal Control in the Federal Government," which describe
the proper execution of transactions and events and state that the Government must assure that
only valid transactions to “exchange, transfer, use, or commit resources … are initiated or
entered.” Specifically, the standards state:

        Internal controls and all transactions . . . need to be clearly documented, and the
        documentation should be readily available for examination. The documentation should
        appear in management directives, administrative policies, or operating manuals and may
        be in paper or electronic form. All documentation and records should be properly
        managed and maintained.
        .
The GAO standards also include specific management controls for recording and documenting
financial transactions:

        Transactions should be promptly recorded, properly classified and accounted for in order
        to prepare timely accounts and reliable financial and other reports. The documentation for
        transactions, management controls, and other significant events must be clear and readily
        available for examination.


Inaccurate or incomplete documentation to support transactions can result in unreliable financial
data and ultimately, noncompliance with appropriation law.

Adequate documentation is briefly defined in the “GAO Standards for Internal Controls in the
Federal Government.” However, the NASA FMM does not define adequate documentation.
In the absence of specific criteria, we believe that adequate documentation includes, but is not
limited to, documents such as contract modifications, purchase requests, or documents that
provide a complete, detailed narrative explanation of why the transaction is requested.
                                                     3
Supporting documentation should include evidence of management’s approval, the approval
date, and appropriate signatures.

Documentation for Deobligations

We reviewed the Langley and Marshall procedures for processing deobligations. Specifically,
we tested 39 transactions at each Center for a total of 78 transactions. The sampling
methodology and quantitative analysis is described in Appendixes A and C. We identified
documentation deficiencies in 29 transactions at Langley and 12 transactions at Marshall. The
results are summarized, by Center, as follows.

                                         Summary of Results
       Center        Totals               Documentation                           Validity
                                                  Inadequate/                            Invalid/
                                    Adequate          None                Valid        Questionable
    Langley            39              10               29                 24               15
    Marshall           39              27               12                 35                4
    Totals             78              37               41                 59               19

Of 78 transactions, 37 were adequately documented and supported. We considered 36 of the
transactions to be valid and supported by contract modifications, purchase requests, or other
documented requests to correct internal accounting information or close out contracts. We
considered one transaction, valued at $34,000, to be invalid based on an interview with the
program analyst. The analyst stated that the deobligation was made to reduce the amount of the
uncosted obligations.7 By deobligating the funds, accounting personnel increased the ratio of
costed obligations to total obligations. In our opinion, deobligating funds to reduce uncosted
obligations is not a valid deobligation.

Of the 78 transactions, 41 were either not documented or inadequately documented. We found
no documentation to support 19 of the 41 transactions. Based on discussions with financial,
program, and budget personnel, we considered 13 of the 19 transactions to be valid (7 were
cost accounting adjustments, 5 were error corrections, and 1 was a duplicate transaction). We
could not validate the remaining six deobligations.

Although we identified documentation for 22 of the remaining 41 transactions, the
documentation did not fully support processing the deobligations. For example, we identified
written notes from accountants and program or budget analysts, requesting that accounting
personnel transfer funds from one financial record to another. However, some of the notes did
not include reasons for the transfer while others merely stated that the transfer of funds was “to
reflect accuracy.”




7
 An uncosted obligation is an obligation awaiting completion of work or accrual of costs.

                                                      4
Because the notes did not fully support the need for the transfers, we traced the transactions
back to the accountants, budget or program analysts, or NASA researchers associated with the
deobligation. Accountants, budget or program analysts, or NASA researchers stated that they
requested the transfers for the following reasons:


      •       to meet obligations and cost metrics,
      •       to fully obligate an expiring reimbursement from another Federal agency or an
              expiring NASA appropriation,
      •       to distribute obligations and costs to benefiting activities,
      •       to correct prior transaction errors and changes in accounting codes, and
      •       to close out contracts.

For each of the remaining 22 transactions, the sources considered the deobligations valid.
Based on the limited documentation and subsequent interviews with applicable personnel, we
considered 10 of the deobligations to be valid. We could not determine the validity of the
remaining 12 transactions. As a result, compliance with the governing requirements for
deobligations could not be assured.

Documentation problems for the 41 transactions are summarized below:

                            Details of Center Documentation Problems
                                                Documentation
                     No Documentation at       Inadequate          Total with Documentation
      Center           Time of Review         Documentation                Problems
   Langley                   11                    18                          29
   Marshall                   8                     4                          12
   Totals                    19                    22                          41



Validity problems for the 19 transactions are summarized below:

                               Details of Center Validity Problems
                                                    Validity
                              Could not Determine     Could Not Determine Validity
                               Validity Due to No            Due to Inadequate
     Center       Invalid       Documentation                 Documentation           Totals
   Langley           0                  3                            12                15
   Marshall          1                  3                             0                 4
   Totals            1                  6                            12                19



We questioned one other deobligation that was not in our sample. On September 24, 1999,
budget and accounting personnel transferred funds ($2,875) for Langley contract NAS1 20342
from the FY 1999 Science, Aeronautics, and Technology (SAT) appropriation to the FY 1998

                                                    5
Human Space Flight (HSF) appropriation. 8 The supporting documentation for this transaction
stated that the funds should be transferred to “reflect correct charges.” Since the
documentation was vague, we contacted the budget analyst to obtain additional support. The
budget analyst stated that additional contract funding was needed under the FY 1998 HSF
appropriation. Therefore, the analyst reduced the costs and obligations by $2,875 in the FY
1999 SAT appropriation and transferred the amount to the FY 1998 HSF appropriation. The
need for the deobligation was still unclear, so we contacted a NASA researcher associated with
the contract. The researcher in charge of the HSF funds was not aware that the project had
ever been in need of additional funding. Therefore, we were unable to determine why the funds
had been transferred. In our opinion, accounting and resources management officials
transferred the funds because of the impending expiration of the 1998 HSF appropriation. 9

Langley financial managers stated that transferring funds between appropriations within the same
contract was proper. Appropriation law requires that obligations be recorded for the purpose
intended and in the period for which the obligation was incurred. The budget analyst’s
explanation did not indicate that the transfer of funds was to correct either the appropriation
used or the period (fiscal year) that the obligation was incurred. In the absence of more specific
documentation, we could not attest to the validity of the transaction.

Audit Results at Marshall and Langley

Of the 78 deobligations reviewed at Langley and Marshall, 41 were not adequately
documented. (Thirty-three deobligations were from the statistical sample, and eight were from
the judgmental sample.) Projecting the statistical sampling results to the transaction universe
(194 transactions) we estimated, with a 95-percent confidence level, that at least 86
deobligations, valued at about $13.2 million, are not adequately documented. The eight
judgmentally selected deobligations were valued at $5.9 million.

Agency Guidance for Documentation

The NASA FMM 9040 provides criteria for recording and reporting obligations. Although
chapter 9041-6 requires that all obligations be supported by documentary evidence, there is no
specific documentation requirement for deobligations. In addition, neither Langley nor Marshall
has Center-specific financial guidance for processing and documenting deobligations.




8
  Contract NAS1 20342 is funded by both the SAT and HSF appropriations. The contract is for Aircraft and
Spacecraft Guidance and Control and is a task order contract. The two accounting records involved a
movement of funds from Reusable Launch Vehicle Crew Module (Task 11, International Space Station
Operations Drivers for Guidance Navigation and Control Systems Control) to Dynamic Load Sensors (Task
31, Analysis of Mir Space Station Acceleration Environment).
9
  The 1998 HSF appropriation was for 2 fiscal years and would expire on September 30, 1999; therefore, funds
would not be available for new obligations after this date.

                                                      6
Langley financial management personnel stated that the Center has an oral policy requiring
written requests for processing deobligations. Additionally, Langley issued a one-page report10
that identified suggested explanations for requested changes in the financial system. Some
suggested explanations included “to reflect correct charges, realignment of funds to reflect
accuracy, and to cost program’s old year funds first.” A copy of the report is in Appendix D.
In our opinion, the suggested explanations are unclear and inadequate because they do not fully
explain reasons for the funds transfers.

A Marshall financial management official stated that the Center has a policy requiring
procurement requests and contract modifications for obligations and deobligations. However,
Marshall has no written policy for making correcting entries, yearend transactions, and
miscellaneous adjustments.

Validity of Deobligations

For the deobligations that were adequately documented, we considered only one to be invalid.
We believe the personnel processed the invalid deobligation to meet Agency internal metrics for
obligations and funds management. Additionally, budget and program personnel cited metrics
as reasons for processing other deobligations we reviewed. We are concerned about Agency
managers using metrics as a means to control funds because of the potential impact on the
proprietary use of funds. Emphasis is needed to ensure that transactions are proper and well
supported and that they meet timeliness metrics. We will continue to review the use of metrics
in ongoing audit work.

Lack of adequate documentation to support financial transactions is an internal control
weakness that can result in inaccurate and unreliable financial data. For the deobligations at
Langley and Marshall, we were unable to attest to the validity of 17 statistically selected
deobligations, valued at about $3.4 million and 2 judgmentally selected deobligations, valued at
$4 million. Projecting the sample results to the transaction universe, we estimated, with a 95-
percent confidence level, that at least 32 deobligations from the universe of 194 deobligations
valued at about $4.7 million, may not be valid.11 Due to the extent of the Centers’
documentation deficiencies, we consider this deficiency to be a significant area of concern
reportable to the Agency’s Internal Control Council.


Recommendations, Management's Response, and Evaluation of
Response


10
   The Center Management Control Officer based the report, originally issued on September 24, 1998, on a
Center Chief Financial Officer internal review performed at Langley.
11
   We based projections on the statistical samples taken at Langley and Marshall for August and September
1999. We did not make projections for the judgmental selections taken from October 1999.

                                                     7
1. The NASA Headquarters CFO should establish criteria in the NASA FMM for
processing and documenting deobligations.

Management's Response. Concur. Management plans to publish appropriate FMM
guidance by November 30, 2000. The complete text of management's response is in Appendix
E. Management also provided extensive comments on the report, which we address in
Appendix F.

Evaluation of Response. Management's planned action is responsive to the recommendation.
The recommendation is resolved but will remain undispositioned and open until the agreed-to
corrective actions are completed.

The Center Directors at Langley and Marshall should:

        2. Establish written policies requiring adequate documentation for all
        deobligation transactions.

Management's Response. Partially concur. NASA management believes the FMM
guidance will be sufficient and additional Center-specific policies are not necessary. However,
Marshall plans to add criteria for documenting transactions for closing contracts, and Langley
has reviewed with financial personnel the need for clearer notes when accounting adjustments
and corrections are made (see Appendix E).

Evaluation of Response. Management's planned actions are responsive to the
recommendation. The recommendation is considered resolved but will remain undispositioned
and open until the agreed-to corrective actions are completed.

        3. Review the unsupported transactions identified in this report to ensure that
        they are valid and adequately documented.

Management's Comments. Concur. The unsupported transactions identified in the report
have been reviewed to ensure they are valid and adequately documented. Management
included additional data that addressed the unsupported transactions (see Appendix E).

Evaluation of Response. Management's comments are not fully responsive to the
recommendation. Although management concurred with the recommendation, Center
management maintains that transactions were adequately documented and valid. Marshall
management did not address documentation, while Langley responded that only one transaction
reviewed was inadequately documented and that daily transaction registers and funding change
memorandums adequately addressed the majority of the remaining transactions. Based on our
reviews of accounting records and interviews with personnel, we maintain that the transactions
cited in this report were not adequately documented. In the majority of transactions, the
documentation presented during our review was not clear or readily available for examination,

                                                8
both of which are required by the GAO standards. We have provided a detailed response to
management's comments regarding adequate documentation and validity in Appendix F, OIG
comment 3.

If Center management would agree to prepare and maintain documents with complete, detailed
explanations of why the transaction was processed and include evidence of management's
approval for the transaction, such actions would be sufficient to resolve this recommendation.
Regarding the validity of the cited transactions, Center management stated that reasons such as
"to reflect accuracy," "to reflect correct charges," "to use expiring funds first," and "to reduce
uncosted carryover balances" are valid deobligations. Such descriptions are overly vague. In
the case of using expiring funds first, a valid obligation is deobligated and a new obligation or
increase to an existing obligation is made against an expiring appropriation. Such transactions
must be properly documented to ensure compliance with fiscal statutes. Fiscal statues require
that Agency funds be used for a specific purpose and within specified timeframes. Transactions
deobligating existing year's funds to meet an Agency or program metric to reduce yearend
uncosted carryover balances should also be well-supported as part of a sound internal control
structure.

We maintain that the Centers have not fully addressed our audit concerns and request that
management reconsider its position and provide additional comments.

        4. Report the documentation deficiencies as a significant area of concern to the
        Agency Internal Control Council until adequate controls are in place and
        operating effectively.

Management's Response. Nonconcur. Many of the transactions questioned in the audit
sample were minor infractions, such as adjustments to correct routine errors or close completed
contracts. Since the issue is simply ensuring that additional documentation is provided and
maintained, the issue is not significant, and reporting it would not be appropriate.

Evaluation of Management’s Response. Management's comments are nonresponsive to
the recommendation. Although management planned to revise the FMM, which will improve
the controls over deobligations, Center management either did not agree that existing
documentation was inadequate or did not fully address the issue. We believe management
should determine whether documentation deficiencies are more wide spread rather than
minimize the results reported at Langley and Marshall. Because the deobligations are reflected
in the Agency financial statements, "minor infractions" can have a significant cumulative impact
on both reported financial information and compliance with fiscal statutes. We maintain our
position that the documentation deficiencies are a significant area of concern and request that
management reconsider its position and provide additional comments.




                                                 9
                Appendix A. Objectives, Scope, and Methodology

Objectives

The objective was to evaluate internal controls for processing and documenting deobligations of
appropriated funds. Specifically, we assessed the support for deobligations and the timeliness
of processing related transactions.


Scope and Methodology

We limited the audit universe to all negative obligation transactions (deobligations) exceeding
$25,000 for August, September, and October 1999 at Langley and Marshall. The total audit
universe for Langley consisted of 170 deobligations totaling $18,556,108. The Marshall
population consisted of 63 deobligations totaling $233,825,918. We examined the Centers
separately. We separated the audit universe into two subsets for each Center. Subset One
contained all deobligations identified for August and September 1999, and Subset Two
contained all October 1999 deobligations at each Center.

Subset One at each Center consisted of August and September 1999 deobligations and was
divided into three strata:12

      • Stratum one contained all transactions that were greater than $900,000. We examined
        all transactions in this stratum.
      • Stratum two contained all transactions valued from $240,000 to $900,000. We
        examined all transactions in this stratum.
      • Stratum three contained all transactions valued from $25,000 to $240,000. We
        selected a sample from this stratum.

Subset Two consisted of all deobligations that occurred during October 1999. We ranked the
deobligations in order of value, and we reviewed the largest nine at each Center. The largest
nine deobligations at Langley and Marshall represented 72 percent and 96 percent,
respectively, of the total October deobligations at each Center. Because we judgmentally
selected the October deobligations, we did not perform statistical projections on the findings for
this subset.

Appendix C contains a summary of our analysis and statistical projections for subsets one and
two.

A summary of the population of deobligations follows:

12
  We excluded from the population any deobligation valued at less than $25,000.


                                                    10
                                                                                  Appendix A

                      Summary of Audit Population by Center and Strata

                           Universe         Universe          Sample           Sample
                           Quantity         Amount            Quantity         Amount
  Subset one
  Langley
  Stratum one                       2           -$4,895,000               2       -$4,895,000
  Stratum two                       6           -$2,403,472               6       -$2,403,472
  Stratum three                   139           -$9,426,190              22       -$1,505,149
  Subtotal                        147          -$16,724,662              30       -$8,803,621

  Marshall
  Stratum one                          4      -$218,864,000               4     -$218,864,000
  Stratum two                          8        -$2,972,523               8       -$2,972,523
  Stratum three                       35        -$2,971,602              18       -$1,573,548
  Subtotal                            47      -$224,808,125              30     -$223,410,071

  Subset two
  Langley
  Stratum one                          9        -$1,319,129              9        -$1,319,129
  Stratum two                         14          -$512,317
  Subtotal                            23        -$1,831,446

  Marshall
  Stratum one                          9        -$8,658,968              9        -$8,658,968
  Stratum two                          7          -$358,825
  Subtotal                            16        -$9,017,793

  Totals                          233         -$252,382,026              78     -$242,191,789



Management Controls Reviewed

We reviewed procurement, financial, resource, and program management policies, procedures,
files, and reports, to determine whether:

           •   Funds reprogrammed were kept in the same congressional appropriation.
           •   Deobligations were supported by adequate documentation.
           •   Deobligations were processed in a timely manner.
           •   Yearend funds reprogramming resulting in new procurement actions were
               adequately competed, defined, and negotiated.
           •   Deobligations were valid.

We considered documentation deficiencies to be a significant area of concern as discussed in
the finding and Appendix B.

                                                11
Appendix A

Audit Field Work

We conducted field work from November 1999 through August 2000 at Langley and Marshall.
We performed the audit in accordance with generally accepted government auditing standards.


Prior Audit Coverage

The NASA Office of Inspector General (OIG) issued Audit Report IG-99-021, “Obligations
Management – Recording Obligations and Adjustments,” dated April 26,1999, based on work
performed at the John H. Glenn Research Center at Lewis Field, Goddard Space Flight Center
(Goddard), Lyndon B. Johnson Space Center, and Marshall. The report concluded that the
Centers accurately recorded obligations and adjustment transactions, but that timeliness and
documentation needed improvement. The Centers sometimes took more than 15 working days
to record obligations and in some cases, had limited or no documentation to support the posted
obligation. Also, the Centers did not always promptly record adjustments to obligations. In
cases in which costs and disbursements were reported in excess of obligations, adjustments
totaling $42 million remained uncorrected for 6 months or longer. As a result, NASA financial
records were not completely current for purposes of preventing overobligation and ensuring
fund availability for expenditures. We recommended that the NASA CFO implement and refine
processes to ensure obligations and adjustments to obligations are promptly recorded.
Management provided an acceptable alternative corrective action and agreed to add specific
metrics on timely recording of obligations and correction of errors to their Quality Assurance
Evaluation process.

The NASA OIG issued Audit Report IG-99-059, “Matching Disbursements to Obligations,”
dated September 30, 1999, based on work performed at NASA Headquarters, Goddard,
Langley, and the John F. Kennedy Space Center. The report concluded that financial
management personnel did not properly match contract disbursements to the originating
obligations. In accordance with fiscal law, NASA must ensure that appropriated funds are used
for the purposes authorized by Congress and must have effective management control over
obligations and disbursements in order to maintain appropriation integrity. Disbursements for
contract items and services received should be matched to the obligations citing funds
authorized to make the payments. Because disbursements were not properly matched to
obligations, appropriated funds may not have been used for their authorized purpose. We
recommended that (1) NASA contractors submit accounting information on their invoices, (2)
procurement offices provide payment instructions to NASA financial management activities, and
(3) require disbursements be properly matched to obligations. NASA management disagreed
with the audit recommendations and stated that they believed disbursements were properly
matched to obligations through the cost accrual process, which ensures that
                                              12
                                                                             Appendix A

disbursements are matched to the proper appropriation. NASA General Counsel supported
the CFO's conclusion that current processes ensure compliance with applicable law. The
recommendations are open and unresolved.




                                            13
          Appendix B. Requirements for Evaluating and Reporting
                         Management Controls

Title 31, United States Code, Section 3512(b), “Executive Agency Accounting and other
Financial Management Reports and Plans,” requires that each executive agency establish and
maintain a system of accounting and internal controls that provide, in part: (1) effective control
over, and accountability for, assets for which the agency is responsible, and (2) reliable
accounting results that are the basis for preparing budget requests, controlling budget resources,
providing financial information to the President,13 and integrating the agency accounting with that
of the Secretary of the Treasury.

To comply, each agency head must establish internal controls to reasonably assure that:

         •   obligations and costs comply with applicable law;
         •   all assets are safeguarded against waste, loss, unauthorized use, or
             misappropriation; and
         •   revenues and expenditures are properly recorded and accounted for to ensure
             reliable financial reporting and accountability of assets.

In consultation with the GAO, the OMB developed guidelines in Circular A-123, “Management
Accountability and Control,” dated June 21, 1995, for evaluating and reporting on agency
systems for accounting and internal controls. Specifically, the head of each executive agency
must evaluate internal controls to determine whether financial systems comply with section
3512(b) of the United States Code and must prepare a statement on the agency’s compliance.
Should an agency fail to comply, the statement shall identify material weaknesses in the systems
and plans for corrective actions. The annual statement and related reports are submitted to the
President and Congress.

NPD 1200.1A, “Internal Management Controls and Audit Liaison and Followup,” dated June
1, 2000, provides NASA guidance for evaluating and reporting on management controls.
Specifically, Agency managers must establish controls to provide reasonable assurance that:

         •   Activities achieve their intended purpose.
         •   Activities are protected from waste, fraud, unauthorized use, misappropriation, and
             mismanagement.
         •   Resources are used consistent with NASA’s mission.
         •   Laws and regulations are followed.
         •   Reliable and timely information is obtained, maintained, reported, and used for
             decisionmaking.


13
 Section 1104(e) of the code provides that the President has access to, and may inspect, records of an
agency to obtain information.

                                                     14
                                                                                                 Appendix B

All NASA managers must continually evaluate and improve the effectiveness of the management
controls over existing operations and processes. Management’s ongoing evaluations should
provide the basis for Agency assessment of accounting and internal controls.

Although Agency managers have primary responsibility for assessing controls, they may rely on
other sources to supplement their assessment. Other sources include results of internal and
external reviews (such as International Organization for Standardization14 reviews, GAO and
OIG audits, evaluations, inspections, and assessments), functional self-assessments, and
financial reviews.

The Administrator must (1) submit the Annual Letter of Assurance to the President and
Congress, pursuant to section 3512 of the United States Code and OMB Circular A-123, and
(2) appoint the Agency Chair of the Internal Control Council and the Management Control
Manager. The Internal Control Council is responsible for recommending issues identified by the
committee for inclusion into the Administrator’s Annual Letter of Assurance.

Deficiencies must be identified when managers are unable to provide reasonable assurance for
any of the NPD requirements discussed earlier. The Internal Control Council must make a
determination as to the relative risk and significance of a deficiency. If the deficiency is
determined to be significant enough to be included in the Administrator’s annual statement, it
must be considered a material weakness.

Due to the extent of inadequate documentation, we could not attest to the validity of
deobligations reviewed during our audit. Therefore, we could not provide reasonable assurance
that Agency obligations were used in accordance with applicable law or that those obligations
were safeguarded from misappropriation. Therefore, we consider the inadequate
documentation to be a significant area of concern reportable to the Agency’s Internal Control
Council, in accordance with the NPD.




14
 The International Organization for Standardization (ISO) is a worldwide federation of national standards
bodies from about 130 countries. The mission of the ISO is to promote the development of standardization
and related activities in the world with a view to facilitating the international exchange of goods and services
and to developing cooperation in the spheres of intellectual, scientific, technological and economic activity.

                                                       15
                Appendix C. Summary of Statistical Methodology

Subset One Population Statistics

The total population of Subset One consisted of 194 deobligations, from August and September
1999, with a total value of $241.5 million. We audited a total of 60 deobligations in this
population. We found that for 17 (28 percent) of our sample items, we could not determine
whether the transaction was valid. Further, we found inadequate documentation for 33 (55
percent) of the items audited.

Only 20 deobligations in this population had a value greater than $240,000. We audited all 20
deobligations. For the remaining 174 deobligations, we took a random sample of 40 items
using the EZQuant random number generator.15 The results of our sample are summarized in
the table below.

                                      Results of Audit by Strata
     Stratum      N1        n2          Mean             σ3           Wt.4       ρ * (validity)5   ρ (documentation) 5
       One         6         6         37,293,167      83,274,867     0.031        0.167                0.333
       Two        14        14            384,000         108,057     0.072        0.357                0.571
      Three      174        40             71,252          49,907     0.897        0.275                0.575

1
  N is the population size of the stratum.
2
  n is the sample size of the stratum.
3
  σ is the standard deviation (or variability) of deobligation values in the stratum.
4
  Weight (Wt.) is the size of the stratum in relation to the total population size expressed as a percentage.
5
  ρ is the number of failures in the sample expressed as a percentage. ρ is also the percent of sampled items
that were found to be invalid or inadequately documented.


We determined the standard error of our estimate for stratum three of Subset One by using
Equation One. Because we sampled all of strata one and two, the standard error for the first
two strata was zero.

                         p(1 − p )(1 − f )
                σρ =                           Equation One*
                              n −1

*ρ equals the percent of sample items that failed, and "f" equals the sample size as a percent of
the population size.

Our results are summarized in the table that follows.



15
 The EZQuant random number generator is a statistical audit tool developed by the Defense Contract Audit
Agency for use by auditors.

                                                      16
                                                                                               Appendix C


                                    Sample Stratum Standard Error
                                       Three             σ ρρ )
                                                        (σ

                                         Validity                0.063

                                     Documentation               0.070

                                       Population          Standard Error
                                                                 σ ρρ )
                                                                (σ

                                         Validity               0.0562

                                     Documentation              0.0623


To obtain a 95-percent interval for ρ, we multiplied the standard error, σρ , by the Z-value16 of
1.96 (Equation Two). For projections to the population, we used the minimum of the
confidence interval obtained with Equation Two.

                    ρ ± (1.96)(σρ )        Equation Two

Using the minimum percentage established by the interval, we multiplied that percentage by the
total number of transactions in the population of stratum three to estimate the number of
transactions in stratum three that were not adequately documented and the number of
transactions we could not verify as valid. We then multiplied the number of transactions thus
obtained by the average cost of transactions for stratum three. Because we audited 100
percent of strata one and two, we did not need to estimate the value of those transactions that
were invalid or inadequately documented, but used the actual value.

Documentation Results for Subset One. We estimated, with a 95-percent confidence level,
that at least 86 deobligations, valued at about $13.2 million, are not adequately documented.

Validity Results for Subset One. We estimated, with a 95-percent confidence level, that at
least 32 deobligations, valued at about $4.7 million, may not be valid.




16
  The Z-value is a random variable that has a standard normal distribution. It identifies the cumulative area
(probability) distribution for an interval (range of values) and is expressed in standard deviations from the
mean.

                                                      17
Appendix C

Subset Two Population

Langley. We did not perform a statistical sample of October 1999 deobligations. Rather, we
audited the nine largest deobligations at Langley, totaling about $1.3 million. The nine
transactions represented 72 percent of the total 23 deobligations that occurred in October
1999.

At Langley, four (44 percent) of the nine October 1999 deobligations, valued at about
$.3 million, were not adequately documented. All nine October 1999 deobligations were valid.

Marshall. We did not perform a statistical sample of October 1999 deobligations. Rather, we
audited the nine largest deobligations at Marshall, totaling about $8.7 million. The nine
transactions represented 96 percent of the total 16 deobligations that occurred in October
1999.

At Marshall, four (44 percent) of the nine October 1999 deobligations, valued at about $5.6
million, were not adequately documented. We were unable to attest to the validity of two (22
percent) of the nine October 1999 deobligations, valued at $4 million.




                                              18
Appendix D. Langley CFO Report




              19
Appendix E. Management's Response




                20
     Appendix E




21
                  Appendix E




See Appendix F,
OIG Comment 1




                               22
     Appendix E




                  See Appendix F,
                  OIG Comment 2




23
Appendix E




             24
     Appendix E




25
                  Appendix E




See Appendix F,
OIG Comment 3




                               26
     Appendix E




                  See Appendix F,
                  OIG Comment 2




                  See Appendix F,
                  OIG Comment 4




27
                  Appendix E




See Appendix F,
OIG Comment 5




See Appendix F,
OIG Comment 6




                               28
     Appendix E




                  See Appendix F,
                  OIG Comment 7




29
Appendix E




             30
     Appendix E




                  See Appendix F,
                  OIG Comment 3




31
Appendix E




             32
     Appendix E




33
Appendix E




             34
     Appendix E




35
     Appendix F. OIG Comments on Management's Response

NASA management provided the following general comments in its response to our
draft report. Our responses to the comments are also provided. In response to
management's comments, we made minor changes to the report, and those changes are
not addressed in this appendix.

Management's Comments. It would be appropriate to add management's responses
to the previous reports referenced on page 1 of this report and to add in Appendix A of
this report management's position on audit report IG-99-059 (as described on page 66
of the 1999 NASA Accountability Report).

1. OIG Comments. We did not add management's position to page 1 of the report
because page 1 refers the reader to Appendix A for details. We added management's
position as stated in the 1999 NASA Accountability Report (page 66) to Appendix A
as requested by management.

Management's Comments. Both Langley and Marshall were concerned that the
audit scope and approach was too restrictive, resulting in misleading information.
Transactions reviewed at both Centers included entries that were adjustments or
corrections, resulting in no net effect to obligation amounts. Limiting the audit scope to
select credit entries does not provide a representative picture of obligations adjustments
and can lead to inaccurate conclusions. A more representative assessment would have
been possible if the scope had been broadened to include related entries.

2. OIG Comments. The scope of our review was not restricted and purposefully
included all negative transactions, including those that reduced obligations or corrected
entries that may have had no net effect on obligation amounts. When the supporting
documentation for the entries in the accounting system clearly referenced an "off-setting"
positive transaction, we concluded that the transaction was adequately documented and
valid. We questioned the validity of a transaction when sufficient documentation was
unavailable to determine why the transaction was recorded, whether the transaction
actually reduced an obligation, or had no net effect on recorded obligations. If the
credit adjustments had been properly documented, we would have been able to attest
to the transaction's validity. Therefore, we do not agree that limiting the scope to credit
transactions misrepresented the overall picture of obligations adjustments, but maintain
that the report conclusions are based on a sound auditing approach.

Management's Comments. Both Marshall and Langley reviewed the transactions
identified in the report and consider them adequately documented and valid. Auditors
should rely on the Centers' system-generated daily register to support the deobligations.
It is not necessary to provide additional documentation



                                             36
                                                                            Appendix F

for cost accounting changes or data entry errors. Further, if total obligations are not
reduced, those transactions do not need to be documented. Sometimes funds are
distributed to charge benefiting activities. As long as funds are used within the same
appropriation and program year, the transaction is valid. No further action is required,
and this recommendation should be closed.

3. OIG Comments . We did use the daily transaction register to research transactions.
However, system-generated printouts were not adequate to document transactions
because there was no explanation of why the transaction was processed and approved.
In many cases, the auditor used information from the accounting system and traced the
sample transactions back to several NASA accounting and resources personnel to
locate the originator of the transaction. In some cases, the auditor interviewed as many
as five people for a single transaction. Even though personnel were able to explain
many of the transactions processed, they did not prepare documentation to support the
transactions until the auditor's request during the review. In each of those cases, there
should have been clear documentation readily available for support and examination of
the transaction, as mandated by GAO requirements.

When changes were made because of the Contractor's Cost Report, cost accountants
explained why the transactions were processed. However, there was no documentation
available to support the transaction. Based on the GAO criteria, a third party should be
able to review the transaction with readily available documentation.

In other cases, when transactions were processed to correct errors and transfer funds,
personnel who originated the transactions no longer worked in the same position, and in
one case, the employee no longer worked for NASA. In those cases, neither adequate
documentation nor testimony to support the transaction was available.

We also found explanations for the transactions such as "to reflect accuracy," "to use
expiring reimbursable funding first," or "to distribute costs to benefiting programs."
Those explanations did not provide sufficient detail to support the transactions. For
example, if costs are redistributed to benefiting programs, there should be a method to
distribute the costs on an allocable basis; instead, the costs were distributed based on
the amount of unobligated funds available in each activity. In this example, the
transaction was not clearly and accurately documented, and without knowing the actual
cost allocations, we still cannot attest to the transaction validity.




                                            37
Appendix F

Management's Comments. The word "deobligations" should be replaced with
"accounting transaction adjustments."

4. OIG Comments. We did not change the report. The suggested term, "accounting
transaction adjustments," does not apply to all of the transactions reviewed. We
maintain that the best approach was to use the term "deobligations" and define it in a
footnote.

Management's Comments. Auditors did not provide Langley officials a list of
unsupported transactions until August 23, and the draft report was issued on August 22.
The report could have been avoided if data had been provided in a timely manner.

5. OIG Comments. Auditors provided information to financial management personnel
throughout the review. For example, we provided a list of 21 unsupported transactions
to accounting officials at Langley on May 8, 2000, in an effort to locate supporting
documentation. The report would not have been avoided, because adequate
documentation was either not prepared or not readily available to support the
transactions processed during audit fieldwork.

Management's Comments. The term "financial management official" should not be
used. The audit report should indicate whether officials were accounting (financial
management) or resources (resources management) personnel.

6. OIG Comments. Financial management personnel include any NASA employee
within the NASA Headquarters or Center Office of the CFO, including
accounting/finance or resources management. We did not change the terminology in the
audit report, but added a footnote to define financial management personnel.

Management's Comments. Langley officials stated that it is good management to use
oldest funds first. Centers are allowed to change funds within a 3-digit
program code. Additionally, when multiple appropriations are used for a single
contract, it is allowable to move funds between appropriations and years where there is
a bona fide need for the procurement. Additionally, moving funds to reflect metrics is
appropriate and reflects sound program management decisions. All of the Langley
transactions are valid and in accordance with Appropriations Law.

7. OIG Comments. We maintain that obligations should be accurately recorded and
in response to a bona fide need for the procurement of goods and services. When
funds movements are not adequately documented, it is not possible to




                                           38
                                                                           Appendix F

determine whether the transaction is valid, accurate, or meets a bona fide need. We do
not believe that using the oldest funds first because they are available and pending
expiration meets the intent of Appropriations Law. Nor do we believe
that moving funds to increase metrics and reduce uncosted, carryover balances
accurately reflects the results of Agency operations. We believe that Centers should not
move funds between appropriations and years without proper analysis and approval to
ensure that the obligation is accurately recorded. Recording obligations under any other
approach does not reflect sound obligations management.




                                           39
                         Appendix G. Report Distribution

National Aeronautics and Space Administration (NASA) Headquarters

A/Administrator
AI/Associate Deputy Administrator
B/Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
H/Associate Administrator for Procurement
HK/Director, Contract Management Division
HS/Director, Program Operations Division
J/Associate Administrator for Management Systems
JM/Acting Director, Management Assessment Division
L/Associate Administrator for Legislative Affairs
M/Associate Administrator for Space Flight
R/Associate Administrator for Aerospace Technology
S/Associate Administrator for Space Science
U/Associate Administrator for Life and Microgravity Sciences and Applications


NASA Centers

Chief Counsel, John F. Kennedy Space Center
Chief Financial Officer, Langley Research Center
Chief Financial Officer, Marshall Space Flight Center


Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and
 Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office
 of Management and Budget
Associate Director, National Security and International Affairs Division, Defense
 Acquisitions Issues, General Accounting Office
Professional Assistant, Senate Subcommittee on Science, Technology, and Space




                                               40
                                                                                Appendix G

Chairman and Ranking Minority Member – Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology
House Subcommittee on National Security, Veterans Affairs, and International Relations
House Committee on Science
House Subcommittee on Space and Aeronautics, Committee on Science

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                              41
                  NASA Assistant Inspector General for Auditing
                                 Reader Survey

The NASA Office of Inspector General has a continuing interest in improving the usefulness of
our reports. We wish to make our reports responsive to our customers’ interests, consistent
with our statutory responsibility. Could you help us by completing our reader survey? For your
convenience, the questionnaire can be completed electronically through our homepage at
http://www.hq.nasa.gov/office/oig/hq/audits.html or can be mailed to the Assistant Inspector
General for Auditing; NASA Headquarters, Code W, Washington, DC 20546-0001.

Report Title: Internal Controls Over Processing Deobligations

Report Number:                                         Report Date:

Circle the appropriate rating for the following statements.
                                                      Strongl                              Strongl
                                                         y      Agree   Neutra   Disagre   y         N/A
                                                       Agree              l         e      Disagre
                                                                                              e
1.   The report was clear, readable, and logically       5       4        3         2         1      N/A
     organized.
2.   The report was concise and to the point.            5       4        3         2         1      N/A
3.   We effectively communicated the audit               5       4        3         2         1      N/A
     objectives, scope, and methodology.
4.   The report contained sufficient information to      5       4        3         2         1      N/A
     support the finding(s) in a balanced and
     objective manner.


Overall, how would you rate the report?

         Excellent                Fair
         Very Good                Poor
         Good


If you have any additional comments or wish to elaborate on any of the above
responses, please write them here. Use additional paper if necessary.




How did you use the report?
How could we improve our report?




How would you identify yourself? (Select one)

       Congressional Staff                         Media
       NASA Employee                               Public Interest
       Private Citizen                             Other:
       Government:               Federal:             State:         Local:


May we contact you about your comments?

Yes:_____                       No:_____

Name:
_____________________________

Telephone: _________________________

Thank you for your cooperation in completing this survey.
Major Contributors to the Report
Chester A. Sipsock, Program Director, Environmental and Financial Management Audits

Sandra A. Massey, Program Manager

Linda Wagner Anderson, Auditor-in-Charge

William R. Lester, Auditor

Nancy C. Cipolla, Report Process Manager

Betty G. Weber, Operations Research Manager

Annette Huffman, Program Assistant
